EXECUTIVE SUMMARY 

Skilled Nursing Facilities (SNFs) cannot accept Medicare 

patients in need of physical therapy (PT) unless they can 

provide the services directly or make arrangements with out- 

side providers to render the needed services. This inspec- 

tion analyzed the various arrangements used by SNFs to 

provide PT and concludes that: 

o 	   Eighty percent of the 241 sampled SNFs used arrange- 

      ments that are economical and efficient. 

o 	   Twenty percent of sampled SNFs used arrangements that 

      are not economical or efficient, are vulnerable to 

      program abuse, and can place an unnecessary financial 

      burden on the beneficiary. 

The key factor contributing to the vulnerability of an 

arrangement was SNF loss of control over billing. In 

vulnerable arrangements, billing was split between the SNF 

and the outside provider or entirely the responsibility of 

the outside provider. Allowing an outside provider to bill 

for SNF inpatient services is known as unbundling. 

Inpatient costs are broken out of SNF operating costs and 

services are billed by providers other than the SNF. Due to 

different reimbursement policies, PT payments to outside 

providers were consistently higher than PT payments 

resulting from SNF billings. As a result of unbundling, this 

inspection identified: 

o 	   excessive Medicare payments estimated at $11 million 

      during fiscal year (FY) 1984; 

o 	   avoidable beneficiary co-payments estimated as $4 

      million in FY 1984; 

o 	   the potential for duplicate and triplicate billing; 

o 	   avoidable administrative costs estimated at $1 million 

      in FY 1984; and 

o 	   inconsistencies in Medicare statutes, regulations, 

      policies and procedures. 

In order to prevent excessive program and beneficiary 

payments, the Health Care Finance Administration (HCFA) 

should propose legislation that: 

o 	   Prohibits unbundling of PT provided to Medicare 

      patients residing in certified or non-certified beds 

      of a participating SNF. 

